                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                               PREAUDIT SURVEY OF THE
                           NEVADA COMMISSION FOR NATIONAL
                               AND COMMUNITY SERVICE

                                  OIG Audit Report Number 0 1- 17
                                        October 27, 2000




                                             Prepared by:

                                            KPMG LLP
                                        200 1 M Street N.W.
                                       Washington, DC 20036

                               Under CNS 01G MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # J-9-G-8-0022
                                       Task # B9GOV203




This report was issued to Corporation management on March 22, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 18, 2001, and complete its corrective actions by March 22,
2002. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                Office of Inspector General
                                                                                             CORPORATION
                      Corporation for National and Community Service
                                                                                             FOR NATIONAL

                              Pre-Audit Survey of the                                        ~ S E K V I C E
                 Nevada Commission for National and Community Service
                           OIG Audit Report Number 01-17



The Cdrporation for National and Community Service, pursuant to the authority of the National and
Community Service Act (NCSA), awards grants and cooperative agreements to state commissions,
nonprofit entities, tribes and territories to assist in the creation of full and part time national and
community service programs. Currently, in accordance with the requirements of the Act, the
Corporation awards approximately two-thirds of its AmeriCorps Staternational funds to state
commipsions. The state commissions in turn fund, and are responsible for the oversight of, subgrantees
who execute the programs. Through these subgrantees, AmeriCorps Members perform service to meet
educational, human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate. Recommendations for future
audit work consider the pre-audit survey results, known audit coverage, and the amount of funding.
We engaged KPMG LLP toperform the pre-audit survey of the Nevada Commission for National and
Community Service. We found that, in 1998, the Commission's administrative operations were
transferred to a newly created notfor-profit organization, the Nevada Commission for National and
Community Service, Inc, whose sole purpose is to administer programs authorized by the NCSA.
Previously, the Commission's operations had been administered by the Nevada Department of
Employment, Training and Rehabilitation.
Based on the limitedproceduresperformed, KPMG concluded that thepresent Commission, the Nevada
Commission for National and Community Service, Inc., has adequate controls over grant award,
admini$tration and monitoring. However, KPMG reports that the Nevada Department of Employment,
Trainiqg and Rehabilitation (DETR) was unable to provide documentation to support payments to
       tees, amounts claimed infinancialstatus reports, and its monitoring ofsubgrantees. KPMG also
         that the DETR lackedprocedures to obtain and review subgrantee audit reports.



                                                                                         Inspector General
                                                                                         1201 New York Avenue, NW
                                                                                         Washington, I)C 20525
 KPMG recommended that OIG rely on the present Commission's annual audit when considering the
 extent af audit work at the Commission. However, KPMG recommended a full scope OIG audit of CNS
funding administered by the Department of Employment, Training and Rehabilitation.
CNS OIG reviewed the report and work papers supporting its conclusions and concur with findings and
recomnhendationspresented. We provided copies of this report to the Nevada Commission for National
and Co&munity Service, Inc., the Nevada Department of Employment Training and Rehabilitation, and
to the Corporation for National and Community Service for their review and comment. In their
responses (Appendices C and D respectively), the Commission and the DETR concurred with the
portions of the report that pertain to their operations. DETR provided additional information on the
close oiut of its grants with CNS. The Corporation's response (Appendix E) disagreed with the
recomrhended audit of DETR, arguing that to audit DETR will not improve the Commission's
operatibns.
The pu ose of this pre-audit survey was to assess internal controls that provide assurance that Federal
      P
funds were properly spent, assess risk, and determine the extent of audit work to be performed in the
future. The results of this pre-audit survey indicate that DETR's internal controls did not provide
reasonable assurance that costs charged to the Federal government were proper. Therefore, OIG concurs
with KPMG's recommendation for a full-scope audit of the costs incurred during the DETR's
administration of CNS grant funds. In accordance with the requirements of OMB Circular A-133,
"Audits of States, Local Governments, and Non-Profit Organizations," we will consider coverage
provided by the State of Nevada's annual Circular A-133 audit and other audits performed under the
Circular's requirements to determine the extent of our audit work.
                                     Pre-Audit Survey of the
                       Nevada Commission for National and Community Service
                                        Table of Contents



RESULTS IN BRIEF ....................................................................................................................... 1

BACKGROUND .............................................................................................................................2

OVERVIEW OF THE NEVADA COMMISSION ......................................................................... 3

OBJECTIVES. SCOPE. AND METHODOLOGY ......................................................................... 4

FINDINGS AND RECOMMENDATIONS .................................................................................... 6

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 ......................... A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
   METHODOLOGY ................................................................................................................     B .1

APPENDIX C. NEVADA COMMISSION FOR NATIONAL AND COMMUNITY
   SERVICE. INC . RESPONSE ................................................................................................         C .1

APPENDIX D. NEVADA DEPARTMENT OF EMPLOYMENT. TRAINING AND
   REHABILITATION RESPONSE ......................................................................................... D .1

APPENDIX E. CORPORATION RESPONSE ............................................................................ E . 1
              2001 M Street. NW                                                Telephone 202 533 3000
             Washington, DC 20036                                              Fax 202 533 8500




October 27, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a preaudit survey of the Nevada Commission
for Natlonal and Community Service (the Commission). The primary purpose of this survey was
to provlde a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

As discussed in the section below entitled Overview ofthe Nevada Commission, the Commission
was part of the State of Nevada Department of Employment, Training and Rehabilitation
(DETR) from its inception in 1994 through May 15, 1998. At that point, a newly-created not-
for-profit organization, the Nevada Commission for National and Community Service, Inc.
(NCNC'S) assumed responsibility for the Commission's grants and activities. Therefore, we
have separated our results below between the two entities.

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the C'omtnission's systems for administering ~ t AmeriCorps
                                                                                   s
grants slnce NCNCS assumed responsibility for Commission administration in May 1998:

    The Commission administers an open, competitive process to select nat~onalservice
    suhgrantees. However, the Commission had not established a thorough pre-award risk
    assessment process to fully evaluate applicants' financial and management capabilities for
    the program year 1999-2000 selection process.

    The C o m m ~ s s ~ ohas
                          n developed adequate control policies and procedures to admmster the
    Corporat~on'sgrant funds.

    The Commission has established adequate procedures to evaluate and monltor subgrantees.
Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants while it was a part of DETR:

   The Commission administered an open, competitive process to select national service
   subgrantees. However, DETR could not locate adequate documentation to support the
   rejection of grant funding and review of certain accepted applications.

    The Commission developed certain control policies and procedures to administer the
    Corporation's grant funds. However, D:ETR could not locate documentation to support
    payments to subgrantees and amounts reported in Financial Status Reports (FSRs).

    The Commission established procedures to evaluate and monitor subgrantees. However,
    DETR could not provide documentation supporting the procedures performed during site
    visits, and sufficient procedures were not in place to obtain and review subgrantee Office of
    Management and Budget (OMB) Circular A- 133 audit reports.

The section below entitled Findings and Recommendations describes the weaknesses noted
above In further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of a full scope audit of
the Commission's grants administered by DETR for program years 1994-95 through 1997-98. In
anticipation of this audit, we recommend that DETR attempt to locate all documentation
supporting the proper administration of Commission grants and work with the Corporation for
National and Community Service to close all Commission grants that DETR administered and to
submit final FSRs for those grants.

However, considering that our preliminary assessments identified only one finding that has
already been corrected, and the results of NCNCS' OMB Circular A-133 audit for the year ended
June 30,2000 did not identify any findings irelated to the AmeriCorps program, we recommend
the Office of Inspector General place reliance on the results of the OMB Circular A-1 33 audit in
considering whether any further audit procedures are required at the Commission for program
years 1998-99 and 1999-2000.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.
Currently, the Corporation awards approximately two-thirds of its AmeriCovps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by Commissions. The standards require, in part, that the Commissions maintain
internal controls that provide for accurate, current, and complete disclosure of the financial and
programmatic results of financially assisted activities, and provide effective control and
accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Nevada Commission

In a February 1994 Executive Order, the Governor of Nevada created the Nevada Commission
for National and Community Service through which qualified service programs in the State of
Nevada would receive funding from the Corporation. Through May 15, 1998, the Nevada
Department of Employment, Training and R'ehabilitation (DETR) administered the
Commission's grants. At that point, the Governor of Nevada, by Executive Order, transferred
the Commission's administration responsibi1,ities to a newly created not-for-profit organization,
the Nevada Commission for National and Community Service, Inc. (NCNCS), whose sole
purpose is to administer programs authorized by the National and Community Service Trust Act
of 1993. At the time of transfer:

    The Corporation asslgned a new ~dentifqingnumber to the NCNCS Commission grants
    Thc Corporation notified NCNCS that it was not responsible for the administration of any
    grants awarded to DETR nor for the closing of those grants Accordingly, NCNCS did not
    receive any carryover funds from the prlor grants
    F~nalFSRs were not submitted and claw-out procedures were not performed for the DETR-
    administered grants
     Ihe C ommiss~onersappomted by the Governor of Nevada d ~ dnot change

The current Commission has 16 members. NCNCS is located in Fallon, Nevada, and operates
with three employees, including an Executive Director, a Program Development Officer, and an
Administrative Assistant. In addition, NCNCS maintains a contract with a bookkeeper for
accounting services. The Executive Director has been in her positlon since the formation of
NCNCS and has several years of experience with AmeriCorps grants. The formation of NCNC'S
and its employees' experience have contributed to the Commission's ability to operate
('orporation grants consistently and retain documentation in an orderly fashion.

As parti of DETR, the Commission was subject to the annual statewide OMB Circular A-1 33
audit. However, the Commission's AmenCorps grants were not tested as major programs during
that tune. For the fiscal year ended June 30, 1999, NCNCS expended less than $300,000 In
federal Eunds and therefore was not requn-ed to receive an OMB Circular A-1 33 audit. For
NCNCS' fiscal year ended June 30, 2000, the Commission's AmeriCorps grant was identified
and tested as a major program as part of an C)MB Circular A-1 33 audit performed by an
independent certified public accountant. The audit reports did not contain any findings required
to be reported under Government Auditing Standards or OMB Circular A-1 33.

NCNCS and DETR provided us with the following information for all program years:

                                                                          Number of
                                                                          Subgrantees
                             Total Corporati~on        Number of        Subject to A- 133
        Program Year             Fundmg                Subgrantees          Audits*




"   For program years 1994-95 through 199'7-98, DETR administered the Comm~ssion'sgrants
    but did not have sufficient procedures to identify subgrantees subject to OMB Circular A-
    133 audits. Thus, determination is based solely on the dollar value of federal awards passed
    through the Commission for each program year. Remaining subgrantees could be subject to
    an OMB Circular A-133 audit if they received additional federal grant funds from other
    sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
('ommission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment ofi

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
    the effectiveness of monitoring of its ArneriCorps State subgrantees, including AmeriCorps
    Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.
Mm
Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   A~iministrativeStandards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

   reviewing OMB Circular A- 133 reports and current program year grant agreements for the
   Commission;

   obtaining information from Commission management to complete flowcharts documenting
   the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000;
   and

   performing procedures to achieve the obiectives detailed in Appendix B to assess the
   Commission's internal controls, selection of subgrantees, administration of grant funds, and
   monitoring of grants, including internal controls over service hour and program
   accomplishment reporting.

As part of the procedures performed, we documented and tested ~nternalcontrols in place at
DETR and NCNCS using inquiries, observations, and exam~natlonof a limited sample of source
documents Flnally, we summarlzed the results of our work to develop the findings and
recommendations presented in this report We discussed all findings with DETR management
and NCNCS management during exit conferences held on December 5 and 6, 2000, respectively

Our procedures were performed in accordance with Goverrzlnerzt Auditing Standards issued by
the Cornptroller General of the United States. We were not engaged to, and did not, perform ar,
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulat~ons,contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to NCNCS, DETR and the Corporation. NCNCS', DETR's
and the Corporation's responses to our findings and recommendations are included as Appendix
C. D and E, respectively.
Findings and Recommendations

Selecting Sz~bgrantees

According to 45 CFR Section 2550,80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

Nevada Comm~ssionfor National and Community Service, Inc. (May 16, 1998 to Present)

NCNCS has established an open, competitive process to select national service subgrantees. It
advertises funding availability through its internet web site, mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and use a standard form to evaluate each applicant, which currently
includes an evaluation of the applicant's financial systems. However, we identified the
following area for improvement within NCNCS' selection process.

        Lack of Pre-Award Risk Assessnzent.for Program Year 1999-2000

For program year 1999-2000, NCNCS had not yet established a thorough pre-award risk
assessment process to fully evaluate applicants' financial and management capabilities. During
that year, NCNCS terminated funding to one subgrantee because of management concerns. We
believe if NCNCS' current pre-award risk assessment procedures had been in place at that time,
NCNCS may not have originally funded this subgrantee. Because NCNCS currently has
adequate procedures to perform pre-award risk assessments, including the review of an
applicant's internal control structure, accounting procedures, and any prior-year audit reports, no
recommendation is required related to this issue.

Ngyada-Department of Employment, Training and Rehabil~tatlon( 1 994 through May 15, 1998)

DETR was responsible for the selection process for program years 1994-95 through 1998-99.
During this period, DETR had established an open, competitive process to select national service
subgrantees. It advertised funding availability through mailing lists and town forums. In
addition, selection officials signed conflict of interest statements annually, received an
instruction package, and used a standard form to evaluate each applicant. However, we
identified the following areas for improvement within DE'TR's selection process.

        Ir~.sl!fficfic.ient
                        Procerr'zrres Related to Pre-Award Risk A.s.se.s.s?rre~~t.s
                                                                                arid Grievances

When IIETR administered the Commission's grants, it did not have adequate pre-award
procedures in place to evaluate applicants' financial and management capabilities. Evidence of
such procedures did not exist for both new applicants tested. In addition, DETR did not have
written grievance procedures for rejected grant applicants, as required by 45 CFR Section
2540.230. However, because DETR is no longer responsible for administering the
Commission's grants, recommendations to address the above Issues are not required.
        Missing Doctirnentcrt~onSupporting the Selection Process

As part of our procedures over the selection process, we noted that DETR could not provide:

    A listing of applications rejected for funding during program years 1994-95 through 1998-
    99.
    Copies of rejection letters that were sent to applicants who were denied funding.
    Documentation supporting the reasons for funding denials.
    Documentation supporting the review performed over two of four accepted applications
    tested.

DETR contends the above documentation existed, but due to the passage of time, it cannot be
located. In accordance with 45 CFR Section 2541.420, entities are required to retain records for
three years after the close of Corporation grants. Since the Corporation has not closed any of the
Commission grants administered by DETR, DETR continues to be responsible for maintaining
records to support those grants, including the documentation identified above.



We recommend that DETR work with the Corporation to close all C o m m ~ s s ~ ogrants
                                                                                n
admm~steredby DETR and to submit final FSRs for those grants. Further, DETR should locate
and malntain the necessary documentation to support the proper administration of Comm~ssion
grants for three years after the close of the related grants.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or acti\,ityn(45 CFR Section 2541.400(a)).

Nevada Commission for NatlonaJ     and Community Service, Inc. (May 16, 1998 to Present)

NCNCS has developed and implemented procedures that are intended to provide reasonable
assurance that grant funds received from the Corporation are properly administered. Procedures
are in place to withhold f ~ ~ n d i npayments
                                       g       if subgrantees do not submit FSRs timely; to manage
cash draw downs and disbursements to subgrantees; and to ascertain whether subgrantees have
met their matching requirements. In program year 1999-2000, NCNCS began using the Web
Based Reporting System (WBRS) for reporting of Commission and subgrantee program
information. In addition, NCNCS personnel have adequate skills and experience to manage and
administer Corporation grant funds. We identified no significant areas for improvement within
this process at NCNCS as a result of the limited procedures performed.

Nevada Department of Employment, Training and Rehab~litation( 1 994 thrxh-May 15, 1y18)

DETR had developed and implemented certain procedures that were mtended to provide
reasonable assurance that grant funds received from the C'orporation were properly administered.
For example, procedures were in place to ascertain whether subgrantees had met their matchmg
requirements. However, we ldent~fiedthe following areas for improvement within DETR's grant
admmistration process.

        Untinzely a~7dInucczrnrte FSRs

In our sample of two Administrative Grant FSRs submitted by DETR:

   One was submitted 10 days late, and
   One contained a $43,739 mathematical error.

In addition, in our sample of two subgrantee FSRs from program years 1994-95 through 1997-
98, one FSR was submitted 38 days late, and we did not find evidence supporting follow-up on
this untimely submission.

As a result, DETR provided the Corporation untimely and inaccurate expenditure informat~on
However, because DETR is no longer responsible for administering the Commission's grants,
recommendations to address the above issues are not required.

        Missing Docuvzentation Supporting Grant Administration

As part of our procedures over grant administration, we noted that DETR could not provide
adequate documentation to support:

    Payments to subgrantees, Including documentation of funding requests submitted by
    subgrantees (four of four items tested).
    Federal expenditures reported on FSRs for subgrantees and the Commission (three of four
    iterns tested).

As noted above, DETR's Commission grants have not been closed. Therefore, DETR continues
to be responsible for maintaining adequate records to support claimed costs, is subject to an audit
of these grant funds, and could be held responsible for any questioned costs identified as part of
such audits. Implementing the recommendation made In the Selecting Subgrantees sect~onwill
help DETR address this issue.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrantee supported activ~ticsto
assure compliance with applicable Federal requirements and that performance goals are being
achieved.

Nevada C o n ~ m i s s i o n f ~ N a t i o n and
                                             a l Community Service, Inc. (May 16, 1998 to Present)

NCNCS has establ~shedcontrols to evaluate and monitor subgrantees, w h ~ c hincludes reviewing
program progress and financial reports and OMB Circular A- 133 audit reports. In addition.
NCNCS schedules site v ~ s ~for t s each subgrantee during the grant period. NCNCS personnel use
a standard site visit report form to document the results of each visit, and NCNCS notifies the
subgrantees of the results of these site visits, including strengths, weaknesses, concerns,
recommendations, and any necessary follow-up requirements.
NCNCS monitors and evaluates program goals and accomplishments reported by the
subgrantees. Program goals are established at the beginning of a program. NCNCS then uses a
number of methods to monitor and evaluate progress toward the goals. These methods include
review of program financial reports, interim progress reports, and the annual accomplishment
review report; site visits by NCNCS staff and commissioners; and regular communication with
subgrantees.

We identified no significant areas for improvement within this process at NCNCS as a result of
the limited procedures performed.

Nevada Department of Employment, Training and Rehabilitation (1 994 through May 15, 1998)

DETR established controls to evaluate and monitor subgrantees, which included the performance
of annual site visits to subgrantees. DETR notified the subgrantees of the results of these s ~ t e
visits and followed-up on the completion of necessary corrective action.

To monitor and evaluate program goals and accomplishments reported by the subgrantees,
DETR reviewed progress reports and the annual accomplishment review report using
information obtained during site visits. In addition, surveys of Members and other parties
involved with the program were conducted, and outs~deevaluators verified reported
accomplishments.

However, we identified the following area for improvement within DETR's subgrantee
evaluation and monitoring process.

        Inszflkient Subgrantee Monitoring Procetluves and Related Documentation

As part of our procedures over the evaluation and monitoring of subgrantees, we noted the
following deficiencies at DETR when it was responsible for administering Commission grants:

    DETR did not have an adequate system in place to collect and review subgrantee OMB
    Circular A- 133 audit reports (two of two items tested). OMB Circular A-1 33 Compliance
    Supplement, March 2000, Part 6 Internal Control suggests that such a review and follow-
                                      -



    up on subgrantees' audit reports is a key component of a program to monitor compliance
    with federal grant requirements.

    DETR did not adequately document its procedures performed during or the results of
    subgrantee site visits, including procedures performed to ensure Members were eligible to
    perform service, living allowances were being p a d according to established guidelines, and
    hours accumulated for service were for authorized activities only (two of two items tested).

As a result of insufficient monitoring and evaluation of subgrantees, instances of material
noncon~pliancerelated to the AmeriCorps program of which DETR was not aware may have
exlsted and may not have been corrected. However, because DETR is no longer responsible for
administering the Comm~ssion'sgrants, recommendations to address the above issues are not
required.
This report is intended solely for the information and use of the Office of the Inspector General:
the management of the Corporation for National and Community Service; the management of the
Nevada Commission for National and Community Service, Inc.: the management of the Nevada
Department of Employment, Training and Rehabilitation: and the United States Congress and is
not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                                 Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over the
past six program years.

Funding Source
and
-     Type

CNS Formula
 Grant Funds

CNS C o m p e t ~ t ~ v e
 Grant Funds

CNS PDAT Funds

C'NS Admm~strat~ve
 Funds

Prom~seFellows

Make a IDlfferencc:
 Day Funds

State M , ~ t c h ~ n g
 Funds
                       Commission Funding




                     Corporation for National Service

Funding to the Nevada Commission for National and Community Service
                             1994-95




                                I
   Americorps                       PDAT                   Admin~stration
   Competitive                      Funds                     Funds
     F~mds
    $276,000                       $10,000                      $133,897

     Match                                                       Match
      $0                                                        $25,049




          Total CNS Funds Retained by the Commission $143,897

                 Total Commission Matching Funds $25,049

             Total CNS Funds Awarded to Sub-grantees $276,000




                                 Americo~ps
                                 Competitive:
                                  $276.000

                                  Subgrantee
                                    Match
                                   $68,440

                                Total # of SUBS
                                        2

                                Total # of Sites
                                       2




                                    A.2
                    Commission Funding




                  Corporation for National Service

Funding to the Nevada Commission for National and Community Service
                             1995-96




                              Subgrantee
                                Match
                               $206,782

                           Total # of StJBS
                                   3

                            Total # of S ~ t e s
                                   3
                            Commission Funding




                        Corporation for National Service

  Funding to the Nevada Commission for National and Community Service
                               1996-97
                                                                     I


Amertcorps                            PDAT
Cornpet~t~ve                          Funds
  Funds
 $453,034                            $73,999

  Match
   $0




   v                                    v
               Total CNS Funds Retained by the Commission $190,994

                    Total Commission Matching Funds $43,521

                Total CNS Funds Awarded to Sub-grantees $453,034




                                   Americo~ps
                                   Competlttve:
                                    $453,034

                                    Subgrantee
                                      Match
                                     $72,650

                                  Total # of SlJBS
                                          2
                    Commission Funding




                  Corporation for National Service

Funding to the Nevada Commission for National and Community Service
                             1997-98
                                   I


                                PDAT
                                Funds                          Funds

                                                              $88,810

Match                                                          Match
 $0                                                           $44,580




 Ir                               Ir                           +
        Total CNS Funds Retained by the Commission $88,810

              Total Commission Matching Funds $44,580

          Total CNS Funds Awarded to Sub-grantees $399,342




                             Americo~ps
                             Competitive:
                              $390,342

                              Subgran tee
                                 Match
                                $69,355
                            Total # or SlJBS
                                   2

                            Total # of Sites
                                   2
                                    Commission Funding




                              Corporation for National Service

Funding to the Nevada Commission for National and Community Service, Inc.
                                1998-99




                                                      Promlse                        Administration
                                    Funds             Fellows                           Funds
                                                       Funds
                                   $129,195           $26,000                           $35,600

                                                                                         Match
                                                                                        $23,345




          Total CNS Funds Retained by the Commission $164,795

                     Total Commission Matching Funds $23,345

            Total CNS Funds Awarded to Sub-grantees $222,875




            Amerlcorps
                                                                        *
                                                                    Prorn~se
             Formula                                                f;ello\rs.
             $106,875                                               $26,000

             Subgrantee                                            Subgrantee
               Match                                                 Match
              $22,991                                                 $0

           Total # of SlJBS                                      Total # of SlJBS
                   1                                                     2

           Total # o f S ~ t e s                                 Total # o f Sites
                   1                                                    3
                                   Commission Funding




                                  Corporation for National Service

Funding to the Nevada Commission for National and Community Service, Inc.
                               1999-2000




I
 Americorps         Amer~co~ps                                Promise    Make a                Admin~strat~on
  Formula           Compet~tive          Funds                Fellows   Difference                Funds
   Funds              Funds                                    Funds       Day                   $1 60,453
  $292,375           $236.1 84                                            Funds

   Match                  Match                                                                    Match
    $0                     $0           $60,000               $66,500                            $1 62,500




-I *                                      v                      +
               Total CNS Funds Retained by the Commission $222,453

                          Total Commission Matching Funds $162,500

                  Total CNS Funds Awarded to Sub-grantees $595,059




                                              i                               L
           Amer~corps                          Amer~colps                            Promise
            Formula.                           Competitive:                          Fellows
            $292,375                            $236,184                             $66,500

           Subgrantee                            Subgrantee                     Subgran tee
             Match                                 Match                          Match
            $82.056                               $219,554                         $0

       Total # of SUBS                        rota1 # of SUBS                 Total # o f SUBS
               2                                      2                               3

       Total # of Sites                       Total # of Sites                Total # of S ~ t e s
              2                                      2                               3
                           Detailed Engagement Objectives
                                  and Methodology

Internal Control


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    awiird to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our ob.jectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure,
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                    and Methodology

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   mahtained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 1 33 audit reports, where applicable;

    detlermine whether program goals are established and results are reported and compared to
    thase goals;

    make a preliminary assessment of internal controls over service hour and program
    acqomplishment reporting; and
                         Detailed Engagement Objectives
                                 and Methodology

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the docimentation to preliminarily assess the adequacy of the procedures performed by the
Commi$sion to assess financial and programmatic compliance and related controls at the sites.
We alsd determined whether the Commission received and reviewed OMB Circular A- 133 audit
reports from subgrantees.
                                                                                     Appendix C


                            Luise S. Jordan
                            Inspector General
Commissioners               Office of Inspector General
Roh\n (:l~\t~)n
(:bur
                            120 1 New York Avenue, NW
                            Washington. DC 20525

                            Federal Express No. 8 1956 1 10 1520

                            March 12.2001
Barbara \Ilen
                            RE: Draft Report of Pre-Audit Survey, Nevada Commission for National
                            and Community Service
(.arol\n Forrester
Kewn Mack                   Dear Ms. Jordan:
Juan R o d r ~ g u e z
                            In response to your lletter of Feb. 12, 200 1. the Nevada Commission for
Ellen S r e ~ n e r         National & Community Service Inc. agrees with the one finding reported
Craig Warnt'r               on Page 6, Selecting Subgrantees, "Lack of Pre-Award R ~ s kAssessment
                            for Program year 1999-2000". Since no recommendation is required
Staff                       related to the issue because NCNCS, Inc. currently has an adequate
S h a ~ nR. L~,cker-
Pomav~lle                   procedure, we will continue to perform pre-award risk assessments now
Executive D ~ r e c t o r
                            and in the future so that all Corporation federal funds are expended in
 Karen R. Grtto
 Program                    accordance with federal requirements.
 Development
 Off~cer
Pamela D. .Moore            Please be advised that NCNCS Inc. is not responding in any way to
.Adm~nistrat~ve.4ssistant
Disability Coordinator      findings or recommendations that pertain to the Commission when it was
aanrncs@phonewave net
                            administered by DETR (Department of Employment,
                            Training and Rehabilitation) during the time period of 1994 through June
                            1998. NCNCS Inc. became the legal entity to administer Nevada's
                            AmeriCorps programs beginning July 1, 1998.

                            Sincerely,                        '-




                            SHAWN R. LECGR-POMAVILLE
                            Executive Director
         DEPARTMENT OF EMPLOYMENT. TRAINING AND REHABILITATION
                              DIRECTOR'S OFFICE
                                     500 E. Third Street
                              Carson City, Nevada       897 13
                 Telephone ( 7 7 5 ) 6 8 4 - 3 9 1 1 F a x ( 7 7 5 ) 684-a0"n




March 8, 2001

Ms. Luise S. Jordan, Inspector General
Office of Inspector General
1201 New York Avenue, NW
Washington DC 20525

Dear Ms. Jordan:

This letter is to respond to the draft report resulting from your pre-aud~tsurvey of
the Nevada Commission for National and Community Service (NCNCS) dur~ng
the period 1994 through May 15, 1998. It was during this period that the Nevada
Department of Employment, Training and Rehabilitation (DETR) was responsible
for grant funds received from the Corporation.


FINDINGS AND RECOMMENDATIONS

Selecting Subgrantees

       Finding: Missing Documentation supporting the Selection Process

              Recommendation: It is recommended that DETR work with the
              Corporation to close all Commission grants administered by DETR
              and to submit final FSRs for those grants. Further, DETR should
              locate and maintain the necessary documentation to support the
              proper administration of Commission grants for three years after
              the close of the related grants.

              Response: DETR concurs with this finding and recommendation.
              We submitted the final FSRs and other fiscal closing documents for
              the period January 1994 through June 1998 on February 2,2001
              (see attached). There was no equipment inventory items with a
            current market value of $5,000 or more purchased with federal
            grant funds. Also, there were no unused/residual supplies
            inventory purchased with federal funds having an aggregate f a ~ r
            market value exceeding $5,000. The equ~pmentand supplies that
            DETR did have on hand were transferred to the newly created not-
            for-profit organization on, or before June 30, 1998. DETR's Final
            Project Report will be filed on, or before July 1 , 2001.


Administrating Grant Funds

      Finding: Missing documentation Supporting Grant Administration

            Recommendation: DETR's Commission grants have not been
            closed. Therefore, DETR continues to be responsible for
            maintaining adequate records to support claimed costs, is subject
            to an audit of these grant funds, and could be held responsible for
            any questioned costs identified as part of such audits.

            Response: DETR concurs with this finding and recommendation.
            We submitted the final FSRs and other fiscal closing documents for
            the period January 1994 through June 1998 on February 2 , 2001
            (see attached). There was no equipment inventory items with a
            current market value of $5,000 or more purchased with federal
            grant funds. Also, there were no unused/residual supplies
            inventory purchased with federal funds having an aggregate fa~r
            market value exceeding $5,000. The equipment and supplies that
            DETR did have on hand were transferred to the newly created not-
            for-profit organization on, or before June 30, 1998. DETR's Final
            Project Report will be filed on, or before July 1, 2001.




 2
MQ C. Florence, Director


Attachment
Cc: Libby Jones
    Duane West
    Marty Ramirez
Memorandum                                                                          Appendix E

TO:

THRL..

FROkl:
                Luise Jordan. [nspector General

                                             eputy Chief

                Peter Heinaru. Director. AmeriCor
                                                              F#ab                AmeriCorps National Service



                                                                     tat and National
                                                                                                                C 0R P O R AT I (
                                                                                                                FOR NATIOY


                                                                                                                RSERV
DATE.           Ltarch 1 1 . 1001

SUBJECT:        Comments on the O [ G Draft 0 1 - 17. Pre-.lird~rS u r i ~ eof~ t/7r             \ c \ cdo
                C'omml\slon f r ~ r\ ' c ~ l ~ o n irnd
                                                   c ~ l ( ' o m m u n i r ~.Cer.~.lce

We ha\.e reviewed the draft pre-audit sun.ey of the Nevada Commission for National and
Cornmunit) Senice and are pleased to note that the Nevada Commission:

         +   administers an open. competitive process for its subgrant selections:

         +   has adequate control policies and procedures to administer the Corporation's grant
             funds: and

         +   has established adequate procedures to evaluate and monitor subpintees

The report contains one finding and no recommendations relating to the Nevada Commission
for National and Community Service. Inc. which has administered Corporation grants since
May 15. 1998.

In the area of Selecting Sub~raatees,the report identified the following area of
improvement: Lack of Pre-A ward Risk Assessment for Program Year 1999-2000 For that
year the Commission had not yet established a thorough pre-award risk assessment process to
e\,aluate applicants' financial and management capabilities. The report continues that there is
no recommendation associated with this finding because the Nevada Commission. Inc.
currently has adequate procedures to perform pre-award risk assessments. including the
review of an applicant's internal control structure. accounting procedures, and any prior-? ear
audit reports.

The report contains five findings and one recommendation concerning the State of Nevada's
Department of Employment, Training and Rehabilitation (DETR) which administered
Corporation grants from 1994 to May 1998.

We note that no recommendation IS made to audit the current Nevada
operatlon: however. a full audit of DETR was recommended. Give



                                                                                         4




                                                                                                                  Learn and Scwc Amcr
                                                                                                                  Nauonrl Scnlor Scrnc
that the Commission has an effective operation; the success of 3 e ~ a d a . sprograms since its
inception: and the absence of other indicators that there are problems with N e u d a ' s
AmeriCorps programs. the Corporation does not b e l i e ~ ethat an audit ot'the DETR grants 1s
~ a r r a n t e dor will result in improt.ements to the Commission's operations.
